             OFFICE OF
      THE INSPECTOR GENERAL


  SOCIAL SECURITY ADMINISTRATION


      DISABILITY DETERMINATION
              SERVICES’
          CLAIMS PROCESSING
            PERFORMANCE

       August 2004   A-07-03-13054




EVALUATION REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY
MEMORANDUM
Date:   August 30, 2004                                                      Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Disability Determination Services’ Claims Processing Performance (A-07-03-13054)



        The attached final report presents the results of our review. Our objective was to
        identify factors that may have resulted in differing levels of performance at selected
        Disability Determination Services.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                         S
                                                         Patrick P. O’Carroll, Jr.

        Attachment
                                                        Executive Summary
OBJECTIVE

Our objective was to identify factors that may have resulted in differing levels of
performance at selected Disability Determination Services (DDS).

BACKGROUND
Disability determinations under the Social Security Administration’s (SSA) Disability
Insurance and Supplemental Security Income programs are made by DDSs in each
State or other responsible jurisdictions according to Federal regulations.1 In carrying out
this function, DDSs are responsible for determining claimants’ disabilities and ensuring
that adequate evidence is available to support their determinations.2

To accomplish our objective, we stratified 41 DDSs3 into five strata based on initial case
clearances for Fiscal Years (FY) 2000 through 2002.4 We ranked the DDSs within each
stratum according to performance on four indicators: production, timeliness, accuracy,
and cost. We selected the higher- and lower-performing DDS in each stratum, as
shown in the following table. We then collected and analyzed information from the
10 selected DDSs to identify factors that may have resulted in differing levels of
performance between the higher- and lower-performing DDSs.



                       Workload          Higher-Performing          Lower-Performing
                        Strata                  DDS                       DDS
                      Very Small            Wyoming                    Vermont
                        Small                 Maine                   New Mexico
                       Medium              Minnesota                    Oregon
                        Large              Mississippi                New Jersey
                      Very Large          North Carolina               Georgia




1
    20 Code of Federal Regulations (C.F.R.) §§ 404.1601 et seq. and 416.1001 et seq.
2
    20 C.F.R. §§ 404.1603(c)(1), 416.1003(c)(1), 404.1614, and 416.1014.
3
  We included 41 of the 52 DDSs in our review. We excluded the 10 Prototype DDSs from our review
because the claims processing operations were different from the other 41 DDSs. We also excluded the
Puerto Rico DDS because most of its workload was Title II cases. See Appendix A for additional
information on the scope and methodology of our review.
4
    A case clearance is defined as the number of initial claims closed by the DDS.


DDS’ Claims Processing Performance (A-07-03-13054)                                               i
RESULTS OF REVIEW

The lower-performing DDSs in our review had higher rates of disability examiner
attrition, fewer examiners in relationship to total staff, and purchased consultative
examinations (CE) on more claims than their higher-performing DDS counterparts. We
believe these factors may have contributed to increased processing times and
decreased productivity at lower-performing DDSs. We also identified factors that may
have negatively affected the claims processing performance of both higher- and lower-
performing DDSs. These factors included State restrictions on hiring staff and high
rates of claimants who missed scheduled CE appointments.

RECOMMENDATIONS
We recommend that SSA continue to work with State governments to resolve the
factors that result in high examiner attrition and difficulties in hiring staff. We also make
recommendations related to an optimal DDS staff mix, uncooperative medical evidence
providers and missed CE appointments. See page 16 for our formal recommendations.

AGENCY COMMENTS
In comments to our draft report, SSA stated that it generally agreed with our findings
and conclusions. SSA stated that it could not develop an optimal DDS staff mix at this
time because staffing mix requirements for the electronic folder and the Commissioner’s
new disability process are unknown. However, SSA stated that it will evaluate the
staffing requirements as it transitions into the new processes. SSA also provided
technical and other comments which we addressed as appropriate. SSA’s comments
are included as Appendix C.

OIG RESPONSE

We recommended that SSA develop an optimal DDS staff mix model as the
Commissioner’s new disability process is being implemented and the related staffing
requirements are determined. We are encouraged that the Agency agreed to evaluate
staffing requirements as it transitions into the new disability process and we continue to
recommend that the optimal staff mix model be developed as staffing requirements are
determined.




DDS’ Claims Processing Performance (A-07-03-13054)                                        ii
                                                                         Table of Contents
                                                                                                                           Page

INTRODUCTION...........................................................................................................1

RESULTS OF REVIEW ................................................................................................2

    Examiner Attrition.....................................................................................................2

    •    High Attrition Significantly Impacts DDS Performance .......................................6

    Staff Mix...................................................................................................................9

    CE Purchases ........................................................................................................10

    Factors Affecting Higher- and Lower-Performing DDSs.........................................12

    •    State Restrictions on DDS Staffing...................................................................12

    •    Missed CE Appointments .................................................................................14

CONCLUSIONS AND RECOMMENDATIONS...........................................................16

APPENDICES

Appendix A – Scope and Methodology

Appendix B – DDSs Ranked Nationally Based on Fiscal Years 2000, 2001, and 2002
             Performance Data

Appendix C – Agency Comments

Appendix D – OIG Contacts and Staff Acknowledgments




DDS’ Claims Processing Performance (A-07-03-13054)
                                                                  Acronyms
AeDib            Accelerated Electronic Disability

CE               Consultative Examination
C.F.R.           Code of Federal Regulations
DDS              Disability Determination Services
DOT              Dictionary of Occupational Titles

FD-14            State Agency Operations Report
FY               Fiscal Year
HIPAA            Health Insurance Portability and Accountability Act of 1996
ODD              Office of Disability Determination
OIG              Office of the Inspector General

POMS             Program Operations Manual System
PPWY             Production-Per-Workyear
SSA              Social Security Administration




DDS’ Claims Processing Performance (A-07-03-13054)
                                                                           Introduction
OBJECTIVE
Our objective was to identify factors that may have resulted in differing levels of
performance at selected Disability Determination Services (DDS).

BACKGROUND
Disability determinations under the Social Security Administration’s (SSA) Disability
Insurance and Supplemental Security Income programs are made by DDSs in each
State or other responsible jurisdictions according to Federal regulations.1 In carrying out
this function, DDSs are responsible for determining claimants’ disabilities and ensuring
that adequate evidence is available to support their determinations.2

To accomplish our objective, we stratified 41 DDSs into five strata based on the number
of initial claims closed by the DDS in Fiscal Years (FY) 2000 through 2002.3 We ranked
the DDSs within each stratum according to performance on four indicators: production,
timeliness, accuracy, and cost. We selected the higher- and lower-performing DDS in
each stratum, as shown in Table 1. We then collected and analyzed information from
the 10 selected DDSs to identify factors that may have resulted in differing levels of
performance between the higher- and lower-performing DDSs.


                                             Table 1
                                     DDSs Selected for Review


                    Workload         Higher-Performing          Lower-Performing
                     Strata                 DDS                       DDS

                   Very Small             Wyoming                    Vermont
                     Small                  Maine                   New Mexico
                    Medium               Minnesota                    Oregon
                     Large               Mississippi                New Jersey
                   Very Large           North Carolina               Georgia



1
    20 Code of Federal Regulations (C.F.R.) §§ 404.1601 et seq. and 416.1001 et seq.
2
    20 C.F.R. §§ 404.1603(c)(1), 416.1003(c)(1), 404.1614, and 416.1014.
3
  We included 41 of the 52 DDSs in our review. We excluded the 10 Prototype DDSs from our review
because the claims processing operations were different from the other 41 DDSs. We also excluded the
Puerto Rico DDS because most of its workload was Title II cases. Refer to Appendix A for additional
information on the scope and methodology of our review.

DDS’ Claims Processing Performance (A-07-03-13054)                                                     1
                                                         Results of Review
The lower-performing DDSs in our review had higher rates of disability examiner
attrition, fewer examiners in relationship to total staff, and purchased consultative
examinations (CE) on more claims than their higher-performing DDS counterparts. We
believe these factors may have contributed to increased processing times and
decreased productivity at lower-performing DDSs. We also identified factors that may
have negatively affected the claims processing performance of both higher- and lower-
performing DDSs. These factors included State restrictions on hiring staff and high
rates of claimants who missed scheduled CE appointments.

EXAMINER ATTRITION
During FYs 2000 through 2002, at least 458 examiners left the employment of the
10 DDSs in our review (see Table 2).4 Over 50 percent of these examiners left DDS
employment because of:
    •   Other Employment (100 of the 458 examiners or 22 percent).
    •   Retirement (82 of the 458 examiners or 18 percent).
    •   Low Salaries (54 of the 458 examiners or 12 percent).

Approximately 50 percent (228 of the 458) of the examiners left the employment of the
10 DDSs in our review because of reasons related to job quality, such as other
employment, low salary, job stress, and low morale.5 DDSs have some ability to
influence job quality, whereas, they cannot control examiners leaving due to factors,
such as retirement or family obligations.




4
 Data for FY 2000 were not available from the Georgia DDS, so the 458 examiner total is a conservative
number for the 3 FYs. For FYs 2000 through 2002, the 10 DDSs in our review employed approximately
1,014 to 1,155 examiners per year.
5
 Low salaries, job stress and/or low morale are reasons examiners might seek other employment (see
Table 2 for the number of examiners who left for these reasons).

DDS’ Claims Processing Performance (A-07-03-13054)                                                   2
                         Table 2: Examiners Who Left DDS Employment FYs 2000 through 20026




                                                                                  Relocated to
                                Employment




                                                                                                                          involuntarily
                                                                                  another city
Performing




                                                                                                 Low morale




                                                                                                                                          obligations
                                             Retirement




                                                                     Job stress
  Higher/
  Lower




                                                                                                              Return to




                                                                                                                                                                        Reasons
                 Workload




                                                          Salaries




                                                                                                                                                        Medical




                                                                                                                                                                                       TOTAL
                                                                                                              school




                                                                                                                                          Family
                                Other




                                                                                                                                                                        Other
                  Strata




                                                          Low




                                                                                                                          Left
             Very Small DDSs
Higher       Wyoming                                                                                                          2                                                          2
Lower        Vermont               1         1              5        1               2           2                                           1                                         13
                 Small DDSs
Higher       Maine                           5                       1                                                                                                                   6
Lower        New Mexico                      6              1        2               1           1                            1              1                                         13
              Medium DDSs
Higher       Minnesota             1         1                                       2           2              3                                       3             1 - death        13
Lower        Oregon                          5              4        8               7           2                          10               4          7                              47
                 Large DDSs
Higher       Mississippi                     3             19        16              3                                        6              1                                         48
Lower        New Jersey                      19                                                                                                                   36 - not specified   55
             Very Large DDSs
Higher       North Carolina      87          6             21        7              15           21            23             2              7                                         189
Lower        Georgia             11          36             4        7               4           4                            3              3                                         727
                   TOTAL        100          82            54        42             34           32            26           24              17          10               37            458


        Both the higher- and lower-performing DDSs in our review experienced examiner
        attrition during FYs 2000 through 2002. However, lower-performing DDSs were most
        impacted by examiner attrition (see Table 3).8 Specifically:

             •    In FY 2000, four of the five lower-performing DDSs (New Mexico, Oregon, New
                  Jersey, and Georgia) had examiner attrition rates greater than their comparative
                  higher-performing DDSs. The four lower-performing DDSs lost 12 to 28 percent
                  of their examiner staff.


        6
          The reasons for leaving are based on exit interviews conducted by management with examiners at
        seven DDSs. Management at the remaining three DDSs provided estimated reasons for examiners
        leaving. The numbers include minor variances due to rounding or more than one reason being provided.
        7
         The Georgia DDS did not provide the number of examiners that left its employment in FY 2000.
        Accordingly, the total number of examiners that left the Georgia and North Carolina DDS’ employment
        during the 3-year period should not be compared. On average, the North Carolina DDS employed
        approximately 45 percent more examiners than the Georgia DDS during the 3-year period.
        8
          Our review of attrition focused on disability examiners, since they are the DDS employees primarily
        responsible for reviewing the documentation necessary to make disability determinations. The disability
        examiner position requires analytical, written, and oral skills, as well as knowledge of medical and
        vocational aspects of disability (POMS DI 24501.005).

        DDS’ Claims Processing Performance (A-07-03-13054)                                                                                                                        3
     •   In FY 2001, three of the five lower-performing DDSs (Vermont, New Mexico, and
         Oregon) had attrition rates greater than their comparative higher-performing
         DDSs. All three DDSs lost over 20 percent of their examiner staff, and the
         Vermont DDS lost most of its examiner staff (97 percent).9

     •   In FY 2002, four of the five lower-performing DDSs (Vermont, New Mexico,
         Oregon, and New Jersey) had attrition rates greater than their comparative
         higher-performing DDSs. Each DDS lost 18 to 24 percent of their examiner staff.

                                     Table 3: Examiner Attrition Rates
                     Higher/Lower
                     Performing




                                                        FY 2000     FY 2001     FY 2002
                                      Workload Strata   Attrition   Attrition   Attrition
                                                         Rate        Rate        Rate

                                     Very Small DDSs
                    Higher          Wyoming               0%          0%          0%
                    Lower           Vermont               0%          97%         24%
                                        Small DDSs
                    Higher          Maine                 0%          9%          14%
                    Lower           New Mexico            15%         24%         18%
                                       Medium DDSs
                    Higher          Minnesota             6%          6%          7%

                    Lower           Oregon                12%         22%         21%
                                        Large DDSs
                    Higher          Mississippi           14%         19%         15%

                    Lower           New Jersey            18%         12%         22%
                                     Very Large DDSs
                                                  10
                    Higher          North Carolina        22%         29%         18%

                    Lower           Georgia               28%         15%         17%
                                    National Average      13%         13%         14%




9
  The 97 percent was taken from the Disability Determination Services Staffing and Workload Analysis
Report (FD-15) and takes into consideration that not only experienced staff left the DDS’s employment,
but new examiners who were hired in the same FY also left the DDS. See page 7 of this report for more
information on Vermont DDS’s examiner attrition.
10
  The higher-performing North Carolina DDS experienced considerably higher attrition during FY 2001
than the lower-performing Georgia DDS. Even with the higher attrition rate, the North Carolina DDS
maintained performance levels that resulted in it being selected as the highest performing very large DDS
under our ranking methodology.

DDS’ Claims Processing Performance (A-07-03-13054)                                                       4
Attrition for the right reasons may be positive for an organization because new
examiners can provide innovative ideas and differing skills. However, high attrition is a
concern when it involves new staff. Of the 458 examiners who left DDS employment
during FYs 2000 through 2002, at least 195, or 43 percent were new examiners (see
Table 4).11 At 8 of the 10 DDSs in our review, over 30 percent of the examiners who left
DDS employment were new examiners. Three lower-performing DDSs (New Mexico,
Oregon, and New Jersey) had a greater percentage of new examiners leave the
employment of the DDS than their comparative higher-performing DDSs. DDS
management stated that the primary reason new examiners left DDS employment was
because of performance problems, low salaries, and/or other job opportunities.


                                            Table 4: New Examiners
                                           Who Left DDS Employment
                                            FY 2000 through FY 2002
                        Higher/ Lower




                                                                       New Examiners
                         Performing




                                                          Number of     Who Left as a
                                        Workload Strata      New          Percent of
                                                          Examiners     All Examiners
                                                           Who Left        Who Left

                                        Very Small DDSs
                      Higher            Wyoming               2             100%
                      Lower             Vermont               4              31%
                                          Small DDSs
                      Higher            Maine                 0               0%
                      Lower             New Mexico            1               8%
                                         Medium DDSs
                      Higher            Minnesota             4              31%
                      Lower             Oregon*              11              34%
                                          Large DDSs
                      Higher            Mississippi          22              46%
                      Lower             New Jersey           30              54%
                                        Very Large DDSs
                      Higher            North Carolina       98              52%
                      Lower             Georgia**            23              32%
                     Total                                   195             43%

                     * Information based on two years only. FY 2000 data were not
                     available by experience level.
                     ** Information based on two years only. FY 2000 data were not
                     available.




11
  Disability examiners with 2 years or less experience are referred to in this report as “new examiners”
because it takes an examiner up to 2 years to perform work independently.

DDS’ Claims Processing Performance (A-07-03-13054)                                                         5
High Attrition Significantly Impacts DDS Performance

High examiner attrition results in a lower percentage of full-time experienced examiners
on the DDS staff (see Chart 1). At 4 lower-performing DDSs (Vermont, Oregon, New
Jersey, and Georgia) the experienced examiner staff was 22 to 30 percent less than
their comparative higher-performing DDS counterparts. Generally, experienced
examiners are more likely to manage heavier caseloads, make more disability
determinations per week, process more complex or specialized cases, and rotate the
time-consuming duties of mentoring new examiners among other experienced
examiners. The lower proportion of experienced examiners at the four lower-performing
DDSs could have contributed to these DDSs experiencing lower productivity and higher
claims processing times than their higher-performing DDS counterparts.


                                                   Chart 1
                            Full-time Experienced and New Examiner Staff FY 2002


                      100
    Total Examiners




                       80                     45                                                          52
                                                                                            61                         60
       Percent of




                                   67
                       60                                82            90          89              82            87
                       40
                                              55                                                          48
                       20          33                                                       39                         40
                                                         18            10          11              18            13
                        0
                                                                                                                      h)
                                                                              )
                                )




                                                                                                                      )


                                                                                                                    h)
                                           )




                                                                                                                      )
                                                      h)




                                                                                                                      )
                                                                )


                                                                               h
                               h




                                                                                                                  ow
                                          w




                                                                                                                  ow




                                                                                                                 ow
                                                                                                                   ig
                                                              ow


                                                                            ig
                            ig




                                                                                                                 ig
                                                   ig
                                        Lo




                                                                                                                (H


                                                                                                               (L
                                                                                                               (L
                                                                        (H
                           (H




                                                                                                              (H


                                                                                                              (L
                                                 (H


                                                            (L
                                     t(




                                                                                                            pi
                                                                                   n




                                                                                                          ey




                                                                                                           ia
                       g




                                                                      a
                                                            o




                                                                                                            a
                                                ne
                                   on




                                                                               go


                                                                                                         ip
                                                                    ot
                      in




                                                                                                         in
                                                         ic




                                                                                                       rg
                                                                                                       rs
                                             ai




                                                                                                      ss
                              rm




                                                                  es




                                                                                                      ol
                m




                                                      ex




                                                                             re




                                                                                                    eo
                                                                                                    Je
                                          M
              yo




                                                                                                   ar
                                                                                                   si
                                                                   n


                                                                            O
                                                     M
                            Ve




                                                                                                 G
                                                                in




                                                                                                 w


                                                                                                 C
                                                                                                is
             W




                                                  w


                                                           M




                                                                                            Ne
                                                                                    M




                                                                                                                      Experienced
                                                                                              h
                                               Ne




                                                                                           rt
                                                                                        No




                                                                                                                      New Examiners


When new examiners leave a DDS’ employment, it loses the staff resources devoted to
training new examiners. Specifically, a DDS devotes up to 2 years training, mentoring,
and supervising new examiners. During the training period, all case actions performed
by new examiners are closely monitored. New examiners are usually able to process
cases independently by the end of their second year of employment. When new
examiners leave DDS employment and are replaced by other new examiners, the
training and mentoring process starts over. Therefore, staff resources are once again
diverted to training new examiners rather than processing disability claims.




DDS’ Claims Processing Performance (A-07-03-13054)                                                                                    6
High attrition can also result in delaying the assignment of disability cases to examiners,
referred to as staging cases.12 We found that 4 lower-performing DDSs (New Mexico,
Oregon, New Jersey, and Georgia) staged initial cases from 10 to 40 days longer on
average than their higher-performing DDS counterparts (see Chart 2). These DDSs
reported that initial cases were staged because of an insufficient number of examiners
to process all case receipts. For DDSs, staged cases represent increased processing
times. For claimants, it results in waiting longer for their disability decision.


                                                          Chart 2
                                 Average Number of Days Initial Cases were Staged in FY 2002
                        40
                        35
                        30
         Average Days




                        25
                        20                                                                  38           40

                        15                                                30

                        10
                                     14                     12                     14
                         5                                                                                                10
                                                 8                                                 0            0
                         0
                                                                                                                     h)
                                                                                  h)
                                 h)




                                                                                                                     )


                                                                                                                   h)
                                                                                                                     )
                                            )


                                                          h)




                                                                                                                     )
                                                                     )




                                                                                                                 ow
                                           w




                                                                                                                 ow




                                                                                                                ow
                                                                                                                  ig
                                                                    w


                                                                               ig
                              ig




                                                                                                                ig
                                                        ig
                                          Lo




                                                                  o




                                                                                                               (H


                                                                                                              (L
                                                                                                              (L
                                                                           (H
                          (H




                                                                                                             (H


                                                                                                             (L
                                                      (H


                                                               (L
                                   t(




                                                                                                           pi
                                                                                                           n




                                                                                                         ey




                                                                                                          ia
                          g




                                                                         a
                                                               o




                                                                                                           a
                                                 e
                                 on




                                                                                  go


                                                                                                        ip
                                                                       ot
                        in




                                                                                                        in
                                                  n


                                                            ic




                                                                                                      rg
                                                                                                      rs
                                               ai




                                                                                                     ss
                                rm




                                                                     es




                                                                                                     ol
           m




                                                         ex




                                                                                re




                                                                                                   eo
                                                                                                   Je
                                           M
         yo




                                                                                                  ar
                                                                                                  si
                                                                      n


                                                                               O
                                                       M
                              Ve




                                                                                                G
                                                                   in




                                                                                                w


                                                                                                C
                                                                                               is
        W




                                                    w


                                                               M




                                                                                           Ne
                                                                                       M




                                                                                             h
                                                 Ne




                                                                                          rt
                                                                                       No




High rates of examiner attrition can significantly impact a DDS’s productivity and
processing time, as illustrated by the extreme experience of the Vermont DDS. The
DDS lost most of its experienced examiner staff in FYs 2001 and 2002. According to
DDS management, examiners who could not adjust to the increasing DDS workload
became overwhelmed, and morale and production plummeted. Approximately
57 percent of the experienced examiners (8 of 14) left the DDS’s employment in
FY 2001. In addition, one experienced examiner transferred from an examiner position
to a less stressful position. Of the remaining five experienced examiners, one left the
following year and another was promoted to supervisor, leaving the DDS with only three
experienced examiners. With few experienced examiners, the DDS was forced to divert
a portion of its workload to the Massachusetts DDS in FYs 2001 and 2002. The DDS’s
productivity decreased from 239 case clearances per workyear in FY 2000 to 173 case


12
  Attrition is not the only reason for staging cases. For example, higher than expected case receipts
could result in a DDS staging cases. In addition, the Minnesota DDS had to stage cases in October 2002
for 14 days due to an examiner union strike.

DDS’ Claims Processing Performance (A-07-03-13054)                                                                             7
clearances per workyear in FY 2002.13 During the same time period, processing time
for Title II cases increased from 61 to 85 days and from 60 to 84 days for Title XVI
cases.14

Examiner attrition can also increase DDS administrative (personnel) costs because it
can result in examiners working overtime to process the workload.15 For example, the
lower-performing Georgia DDS experienced high rates of examiner attrition from
FY 2000 through FY 2002. In FY 2002, the Georgia DDS worked about 54,000 hours of
overtime because the DDS had an insufficient number of experienced examiners to
process disability cases. Overtime pay is at a higher hourly rate than regular pay, which
results in increased administrative costs.

When receipts increase and examiner attrition is high, workforce planning becomes
essential to DDSs as they strive to increase productivity and to decrease processing
times. In December 2003, the Commissioner of Social Security issued a workforce plan
to explain how SSA will manage its human capital in order to achieve the Agency’s
mission and goals.16 One of SSA’s goals in the workforce plan is to deliver high-quality,
citizen-centered service, and an objective of the goal is to make the right decision in the
disability process as early as possible. Although this objective applies directly to the
work of DDSs, the plan did not specifically address the DDS workforce, or specify how
SSA will assist the DDSs in workforce planning.17

Of the 10 DDSs in our review, 5 DDSs (Vermont, New Mexico, Oregon, Georgia, and
North Carolina) conducted long-term workforce planning that addressed examiner
attrition.18 Four DDSs (Wyoming, Maine, Minnesota, and Mississippi) did not conduct
long-term workforce planning.19 All nine of these DDSs reported that long-term
workforce planning is difficult because:

           •   SSA does not make long-term DDS workload and staffing projections.
           •   Budget allocations are delayed each FY.
           •   DDS resource levels are uncertain each FY.

13
     See A-1, footnote 2 for the definition of workyear.
14
  By February 2004, the Vermont DDS recovered from the loss of experienced examiners and increased
their productivity to 259 case clearances per workyear.
15
   In addition to attrition, there are many other factors that can play a role in overtime rates, such as short-
term spikes in workloads, delays in passage of SSA's operating budget, and Federal or State hiring
freezes. We did not determine the specific impact of these factors.
16
     Social Security Administration Human Capital Plan, December 31, 2003.
17
  As reported on the FY 2002 State Agency Operations Report (FD-14), there were 16,232 DDS
employees.
18
 We did not review the DDS workforce plans, nor did we determine if the 10 State governments had
workforce plans that addressed their DDS human capital issues.
19
     The New Jersey DDS did not provide information we requested on long-term workforce planning.

DDS’ Claims Processing Performance (A-07-03-13054)                                                            8
            •         SSA does not always grant DDS hiring authority when requested.
            •         The Commissioner’s new approach for the disability program may change the
                      workforce needs of the DDS.
            •         States sometimes restrict DDS staffing.

The aforementioned issues make long-term workforce planning a challenge for SSA
and DDSs. Nevertheless, SSA and the DDSs need to have a process in place to
ensure sufficient qualified staff to adequately process disability determinations.

STAFF MIX
Lower-performing DDSs had a different full-time staff mix than their higher-performing
DDS counterparts.20 As shown in Chart 321, the lower-performing DDSs had fewer
examiners in relationship to total staff than their higher-performing DDS counterparts.


                                                          Chart 3
                                    Percent of Full-Time Examiners in Relationship to
                                                    Total Staff FY 2002

                      100
                       80       52                    43     52   47        48        47      50
                                           54                          57        57
        Percent Of
        Total Staff




                       60
                       40
                                48                    57     48   53        52        53      50
                                           46                          43        43
                       20
                        0
                                                                                      h)
                                                                                     h)
                               h)




                                                                                      )


                                                                                    h)
                                                                                      )
                                        )


                                                   h)




                                                                                      )
                                                                                     )




                                                                                  ow
                                                                                  ow
                                       w




                                                                                 ow
                                                                                   ig
                                                                                 ow


                                                                                  ig
                            ig




                                                                                 ig
                                                 ig
                                     Lo




                                                                                (H


                                                                               (L
                                                                               (L
                                                                              (H
                        (H




                                                                              (L
                                                                              (H
                                               (H


                                                                              (L
                                  t(




                                                                            pi
                                                                            n




                                                                            y




                                                                           ia
                        g




                                                                           ta
                                                         o




                                                                            a
                                            e
                                on




                                                                          e
                                                                        go


                                                                         ip
                      in




                                                                         in
                                           n


                                                      ic




                                                                       rg
                                                                       so




                                                                       rs
                                        ai




                                                                      ss
                              rm




                                                                      ol
              m




                                                   ex




                                                                     re




                                                                    eo
                                                                    Je
                                                                   ne
                                       M
            yo




                                                                   ar
                                                                   si
                                                                   O
                                                 M
                            Ve




                                                                 G
                                                                in




                                                                 w


                                                                 C
                                                                is
           W




                                               w


                                                        M




                                                            Ne
                                                             M




                                                              h




                                                                                           Other Staff
                                            Ne




                                                           rt
                                                         No




                                                                                           Examiner Staff




20
     Of the 16,232 staff employed by the DDSs in FY 2002, only 6,852 (42 percent) were examiners.
21
  Data were obtained from the FY 2002 FD-14. The staffing levels are an average of full-time staff for
the FY and therefore the current staffing levels could be different. The information does not include
contractual clerical staff involved in the disability process. We did not determine the impact contractual
clerical staff would have on staffing levels.

DDS’ Claims Processing Performance (A-07-03-13054)                                                           9
In FY 2002, the five higher-performing DDSs had a higher percentage of examiner staff
than their lower-performing DDS counterparts. We believe this may have contributed to
the higher-performing DDSs being able to process an average of 70 more clearances
per workyear and process claims an average of 32 days faster than the
5 lower-performing DDSs.

Federal regulations allow States to provide the organizational structure and qualified
personnel needed to make disability determinations.22 Furthermore, States are required
to adhere to applicable State approved personnel standards in hiring staff.23
Accordingly, SSA has limited its involvement in the DDS’ ongoing management of the
disability program.24 However, the Federal/State relationship does not preclude SSA
from developing an optimal DDS staff mix model for DDSs to follow. In fact,
amendments to the Social Security Act in 1980 allow SSA to issue regulations
specifying performance standards and administrative requirements and procedures to
be followed in making disability determinations.25

SSA should develop an optimal DDS staff mix model and encourage DDSs to follow the
model to achieve the Commissioner’s goal of processing disability claims accurately
and as early as possible in the process. According to staff in the Office of Disability, the
Commissioner’s new approach to improve the disability determination process,
including the transition to accelerated electronic disability (AeDib), makes it difficult to
develop an optimal staff mix because it does not know what an optimal staff mix will be
under the new claims processing environment. However, SSA could initiate
development of an optimal staff mix model as the Commissioner’s new approach is
being implemented and related staffing requirements are determined.

CE PURCHASES
In FY 2002, four of the five lower-performing DDSs (New Mexico, Oregon, New Jersey,
and Georgia) purchased CEs on a higher percentage of disability cases than their
higher-performing DDS counterparts (see Table 5).26 Three of the five lower-performing
DDSs (New Mexico, New Jersey, and Georgia) also purchased CEs on a higher
percentage of disability cases than their higher-performing DDS counterparts regardless
of the type of case (Title II, Title XVI, or concurrent). CEs are purchased when the




22
     20 C.F.R. §§ 404.1603(c)(2) and 416.1003(c)(2).
23
     20 C.F.R. §§ 404.1621(b) and 416.1021(b).
24
     20 C.F.R. §§ 404.1603(a) and 416.1003(a).
25
     Section 221(a)(2) of the Social Security Act, as amended (42 U.S.C. § 421(a)(2)).
26
  A CE is a physical or mental examination or test purchased for an individual at SSA’s request and
expense from a treating source or another medical source (20 C.F.R. §§ 404.1519 and 416.919).

DDS’ Claims Processing Performance (A-07-03-13054)                                                    10
claimant does not have medical evidence that is available or sufficient to support a
medically determinable impairment.27 CE purchases increase claims processing time
because the DDS must wait for a CE to be scheduled and performed, and the results of
the CE to be received from the medical provider.

              Table 5: CE Purchase Rates and Average CE Waiting Time FY 2002
                                                                         28
                                                  CE Purchase Rate (%)
      Performing




                                                                                          Average
                                                                                        Estimated CE
      Higher/




                    Workload Strata   Title II    Title XVI   Concurrent      Total
      Lower




                                                                                        Waiting Time
                                      Cases        Cases        Cases         Cases         (days)

                    Very Small DDSs
     Higher        Wyoming             38%          45%          41%          41%             33
     Lower         Vermont             37%          40%          33%          37%             24
                      Small DDSs
     Higher        Maine               28%          31%          38%          32%             31
     Lower         New Mexico          29%          43%          39%          38%             72
                     Medium DDSs
     Higher        Minnesota           28%          41%          38%          34%             36
     Lower         Oregon              31%          38%          36%          35%             22
                      Large DDSs
     Higher        Mississippi         32%          41%          41%          39%             36
     Lower         New Jersey          36%          43%          47%          41%             36
                    Very Large DDSs
     Higher        North Carolina      31%          34%          39%          34%             33
     Lower         Georgia             39%          45%          48%          44%             56


During FY 2002, an average of 42 days elapsed between the time the CE appointment
was scheduled and the CE report was received (CE waiting time) by lower-performing
DDSs. Overall, this accounted for about 40 percent of the average claims processing
time for the 5 lower-performing DDSs. Of most concern was that the CE waiting time
accounted for 58 percent of the overall claims processing time at the New Mexico and
Georgia DDSs.




27
     20 C.F.R. §§ 404.1519a(b) and 416.919a(b).
28
  The CE purchase rate identified on the FD-14 for cases is the percentage of all case clearances in the
respective category that had a CE purchased for the case.

DDS’ Claims Processing Performance (A-07-03-13054)                                                     11
The lower-performing Oregon and Georgia DDSs reported that uncooperative medical
evidence providers were a reason for increased CE purchases.29, 30 A medical evidence
provider may be uncooperative in providing medical evidence if they are waiting for
payment for previous services from the claimant; require a special medical release
form31 before submitting evidence; or are unsatisfied with the DDS’s payment for the
medical evidence. The Georgia DDS (lower-performing DDS) estimated that 25 to
30 percent of CEs purchased in FY 2002 were due to uncooperative medical evidence
providers.

FACTORS AFFECTING HIGHER- AND LOWER-PERFORMING DDSs
We also identified factors that may have adversely affected the performance of both
higher- and lower-performing DDSs. These factors included State restrictions on hiring
staff and high rates of claimants who missed scheduled CE appointments.

STATE RESTRICTIONS ON DDS STAFFING

The 10 DDSs in our review stated that they experienced State restrictions in hiring staff,
including hiring freezes, lengthy hiring procedures, and noncompetitive salaries.
Although DDSs are funded by SSA, DDSs must follow State personnel policies and
procedures including State approval on hiring new staff.32 Two higher-performing DDSs
(Maine and Minnesota) and two lower-performing DDSs (Vermont and Oregon)
experienced State-imposed hiring freezes in FYs 2000 through 2002, which delayed the
hiring of examiners needed to process disability claims. As previously reported, the
attrition rate in Vermont and Oregon was among the highest of the 10 DDSs in our
review (see Table 3), therefore, it was critical for these DDSs to hire examiners timely in
order to process SSA’s disability claims.

Some DDSs also reported that lengthy State procedures prolonged the hiring process
because of scheduling and administering civil service tests, performing background
checks, reviewing DDS selections, and authorizing DDS hires. From the time an
opening is announced to actually bringing a new employee onboard, Wyoming, New
Jersey, and Georgia DDSs reported a wait of 3 to 5 months.

29
  DDSs are instructed by SSA not to request a CE until every reasonable effort has been made to obtain
evidence from the claimant’s medical sources (20 C.F.R. §§ 404.1519a(a)(1) and 416.919a(a)(1)).
30
  Uncooperative medical evidence providers are a reason that two DDSs provided for not receiving
medical evidence. However, medical evidence may not be received for other reasons, such as some
providers simply do not want to get involved in the disability claim process, or the providers are part of
cumbersome bureaucratic organizations that are not responsive.
31
  DDSs use the SSA-827 form (Authorization to Disclose Information to SSA) to obtain medical evidence.
However, some DDSs informed us that some medical sources interpret the requirements of the Health
Insurance Portability and Accountability Act of 1996 (HIPAA) differently and will not release medical
evidence without a medical release form that includes additional language to reflect their interpretation of
HIPAA.
32
     20 C.F.R. §§ 404.1621(b) and 416.1021(b).

DDS’ Claims Processing Performance (A-07-03-13054)                                                           12
     •   One DDS reported that their Department of Personnel establishes the candidate
         pool by means of a civil service test. The test has resulted in no one in the pool
         because either no one took the test or no one was qualified. So, the test had to
         be rescheduled and the process restarted resulting in a delay in hiring.

     •   Another DDS reported that its parent agency has taken 6 weeks to approve the
         DDS’ selection. Until the selection is approved by the parent agency, the DDS
         cannot offer the job to the candidate. Due to the delay, candidates have chosen
         not to wait for the approval and the DDS has lost potential qualified employees.

Eight DDSs reported that examiner salaries need to be upgraded to attract and retain
examiners. Two higher-performing DDSs, Mississippi and North Carolina, indicated that
State salary restrictions significantly limit the applicant pool by not attracting applicants
with the necessary skills to be examiners. To provide SSA with information on the
salaries of a similar occupation in the State, we compared the average salaries of
experienced DDS examiners to average salaries of claims examiners for the insurance
industry.33

As shown in Table 6, the salary for an insurance examiner was higher than the salary of
an experienced DDS examiner at nine DDSs. Only the examiner salary of the New
Jersey DDS exceeded that of claims examiners in their State. We could not reach any
definitive conclusions regarding the salary at these DDSs in relation to their respective
performance and attrition rates. For example, 4 of the 10 DDSs (Maine, New Mexico,
Mississippi, and Georgia) in our review had examiner salaries that were at least
10 percent lower than the salaries of insurance examiners in their State (see Table 6).
However, two of these DDSs (Maine and Mississippi) were higher-performing DDSs,
which diminish any correlation between low salaries and low performance. Also, these
DDSs did not have the highest attrition rates of the 10 DDSs in our review. In fact, 4 of
the 10 DDSs (Vermont, Oregon, New Jersey, and North Carolina) in our review had
attrition rates that were equal to or higher than the 4 DDSs with the greatest difference
in DDS and insurance claims examiners’ salaries. In addition, based on our national
performance ranking of the 41 DDSs in our population (see Appendix B), the New
Jersey DDS had the lowest performance of all DDSs, but it had the highest average
examiner salary of the 10 DDSs in our review.




33
    We selected the Insurance Industry Claims Examiner position for our salary comparison because it was
the occupation in the State most similar to the DDS examiner occupation. Insurance industry claims
examiners specialize in group or individual insurance plans and in hospital, dental, or prescription drug
claims. Examiners review health-related claims to see if costs are reasonable based on the diagnosis
and determine the average period of disability for various conditions, expected treatments, and average
hospital stay. Insurance industry claims examiners review causes of death to determine if death was
accidental or not and review new applications for life insurance to ensure applicants have no serious
illnesses that would prevent them from qualifying for insurance. (Source: Occupational Outlook
Handbook, Bureau of Labor Statistics, U.S. Department of Labor website).

DDS’ Claims Processing Performance (A-07-03-13054)                                                    13
                      Table 6: Comparison of an Insurance Examiner’s
                       Salary to the Average Salary of an Experienced
                                    DDS Examiner in 2002

              Higher/Lower
               Performing
                                                           Experienced
                                               Insurance
                                                               DDS
                                               Examiner
                             Workload Strata                Examiner     Difference (%)
                                                Average
                                                             Average
                                                 Salary
                                                              Salary

                             Very Small DDSs
             Higher          Wyoming            $39,710      $36,762          8%
             Lower           Vermont            $45,460      $43,222          5%
                               Small DDSs
             Higher          Maine              $45,770      $38,160         20%
             Lower           New Mexico         $40,700      $35,984         13%
                              Medium DDSs
             Higher          Minnesota          $47,190      $46,505          1%
             Lower           Oregon             $45,740      $43,000          6%
                               Large DDSs
             Higher          Mississippi        $34,580      $30,000          15%
             Lower           New Jersey         $45,850      $56,403         (19%)
                             Very Large DDSs
             Higher          North Carolina     $42,200      $39,787          6%
             Lower           Georgia            $48,380      $41,872         15%


MISSED CE APPOINTMENTS

All 10 DDSs in our review indicated ongoing problems with claimants not attending their
scheduled CE appointment. DDSs reported this significantly increased case processing
times:

   •   Minnesota DDS reported that about 16 percent of claimants, the majority of
       whom were mentally impaired or children, missed CE appointments, which
       added an estimated 7-weeks processing time per case.

   •   Mississippi DDS reported that about 25 percent of claimants, the majority of
       whom were mentally impaired, were uncooperative in attending the CE
       appointment, which added an estimated 4 to 6 weeks processing time per case.

   •   Georgia DDS estimated that about 30 percent of their CE appointments were
       rescheduled, most of these being mentally impaired and children, which added
       an estimated 2-weeks processing time per case.

Neither SSA nor DDSs can make a claimant attend the scheduled CE, so they must be
innovative in creating processes that improve CE attendance. For example, the North
Carolina DDS reported a small, successful pilot initiated at a Cherokee reservation to
address missed CE appointments. Twice a year, the local SSA field office, the DDS,
and the reservation hospital work together on the reservation to take claims and perform
CEs. The DDS indicated that the pilot facilitates rapid processing of claims in that area
by reducing missed CE appointments.

DDS’ Claims Processing Performance (A-07-03-13054)                                        14
In FY 2002, the Georgia DDS created an innovative pilot to help address its high rates
of missed CE appointments. The pilot avoided rescheduling CEs for mental impairment
cases, increased medical evidence usage and decreased CE purchases. After medical
evidence is received from a mental health provider, the Committee developed and sent
a “Mental Impairment Questionnaire” to these providers to obtain additional information,
thereby eliminating the need, in some cases, to order a CE. During the pilot, the DDS
sent 257 questionnaires, 87 were returned, and the DDS avoided ordering 72 CEs. Due
to the success of the pilot, the Georgia DDS now allows this process to be used by all
examiners.




DDS’ Claims Processing Performance (A-07-03-13054)                                   15
                                                        Conclusions and
                                                       Recommendations
We identified factors that may have influenced the level of performance of the DDSs
included in our review. Generally, the lower-performing DDSs in our review had higher
rates of disability examiner attrition, fewer examiners in relationship to total staff, and
purchased CEs on more claims than their higher-performing DDS counterparts. In
addition, State restrictions on hiring staff and high rates of claimants who missed
scheduled CE appointments may have negatively affected the claims processing
performance of both higher- and lower-performing DDSs. We acknowledge that there
are other factors that most likely also influenced the performance of the DDSs in our
review. Accordingly, we do not suggest that the factors identified in our report are all
inclusive.

In September 2003, the Commissioner of Social Security presented a new approach to
improve the disability determination process with a goal to make the right decision as
early as possible in the process.34 The approach includes:

        •   An electronic disability claims folder that will link all components involved in
            processing disability claims and eliminate mailing, locating, and organizing
            paper folders.

        •   A Quick-Decision step where a Regional Expert Review Unit will screen and
            approve claims to allow a claimant to receive a decision as soon as possible
            when they are obviously disabled.

        •   Centralized medical expertise within the Regional Expert Review Units that
            are available to provide support to disability decision makers at all levels,
            including the DDSs.

        •   Elimination of the reconsideration step.

        •   Continued full documentation and explanation of disability determinations.

        •   An in-line quality review process managed by DDSs to increase opportunities
            for identifying problem areas and implementing corrective actions and related
            training.




34
  Statement for the record, Honorable Jo Anne B. Barnhart, Commissioner of the Social Security
Administration, Hearing on the Social Security Administration's Management of the Office of Hearing and
Appeals, September 25, 2003, before the United States House of Representatives, Committee on Ways
and Means, Subcommittee on Social Security.


DDS’ Claims Processing Performance (A-07-03-13054)                                                   16
We commend the Commissioner for developing a new approach to improve SSA’s
disability determination process. The quick-decision step and the elimination of the
reconsideration step may remove some of the workload from DDSs and free up DDS
resources for more demanding tasks, such as adjudicating difficult claims, fully
documenting determinations, and performing in-line quality reviews. However, these
very challenging tasks will require the knowledge and skills of experienced disability
examiners. High examiner attrition may impact some DDS’ ability to perform these
tasks efficiently and effectively. In addition, an appropriate staff mix of examiners to
total DDS staff to handle the complexity and volume of the workload is needed to reach
the Commissioner’s goal of making the right decision as early as possible in the
disability determination process.

The Commissioner’s new approach will not resolve the difficulties DDSs face in
obtaining medical evidence from uncooperative medical evidence providers or the high
rates of claimants who do not attend CE appointments. These claims processing
challenges may impact some DDS’ ability to improve performance. Regardless of the
success of the electronic disability folder or the Commissioner’s other initiatives, DDSs
cannot make timely decisions without timely medical evidence from treating sources
and CE providers. Accordingly, resolution of these claims processing challenges will
assist DDSs to achieve the Commissioner’s goal of making the right decision as early
as possible in the disability determination process.

The DDSs are responsible for providing an organizational structure and qualified
personnel to process disability claims and to obtain evidence needed to make disability
determinations. However, SSA is required to work with DDSs to provide and maintain
an effective system for processing disability claims, including providing leadership and
oversight.35 Therefore, to improve DDS claims processing performance, we recommend
that SSA:

1. Continue to work with State governments to resolve the factors that result in high
   DDS examiner attrition and difficulties in hiring staff.

2. Initiate development of an optimal staff mix model as the Commissioner’s new
   disability determination approach is being implemented and related staffing
   requirements are determined.

3. In concert with DDSs, establish outreach efforts with providers who are historically
   unwilling to submit medical evidence in a timely manner to educate them on the
   importance of medical evidence on disability decisions that affect the life quality of
   disabled citizens.

4. Assist DDSs to establish innovative processes that will lower the high rates of
   claimants who do not attend CE appointments.



35
     20 C.F.R. § 404.1603 and 416.1003.

DDS’ Claims Processing Performance (A-07-03-13054)                                          17
AGENCY COMMENTS
In comments to our draft report, SSA stated that it generally agreed with our findings
and conclusions. With regards to recommendation number two, SSA stated that it could
not develop an optimal DDS staff mix model at this time because staffing mix
requirements for the electronic folder and the Commissioner’s new disability process
are unknown. However, SSA stated that it will evaluate the staffing requirements as it
transitions into the new processes.
SSA also expressed reservations about our review methodology and provided technical
comments that we addressed as appropriate. SSA’s comments are included at
Appendix C.

OIG RESPONSE
We recommended that SSA develop an optimal DDS staff mix model as the
Commissioner’s new disability process is being implemented and the related staffing
requirements are determined. We are encouraged that the Agency agreed to evaluate
staffing requirements as it transitions into the new disability process and we continue to
recommend that the optimal staff mix model be developed as staffing requirements are
determined.
With regards to SSA’s comments on our review methodology, we provided SSA
opportunities to be involved in the development of our review methodology and to
provide comments on the final methodology. Specifically, on January 8, 2003, we met
with Office of Disability Determination (ODD) to discuss the methodology for our review.
At that time, ODD stated that our proposed methodology was fair. On
January 14, 2003, we provided ODD a detailed, written description of our review's
methodology and asked for comments. ODD did not provide any comments on or
objections to our methodology. Furthermore, SSA did not provide any comments on or
objections to our methodology at the March 4, 2003 entrance conference or the
June 23, 2004 exit conference.
We believe our review methodology fairly reflects the DDS’ ability to manage workloads
and produce timely and accurate disability decisions. Specifically, our methodology
ranked DDS performance based upon four performance indicators that SSA utilizes to
make DDS management decisions (Production-Per-Workyear [PPWY], processing time,
accuracy and cost-per-case). Our methodology weighted the performance indicators
equally because SSA stated that it considered all of the indicators critical to successful
DDS claims processing performance and SSA was unable to provide us with a
measurement system that provided a better measurement of DDS performance. Three
of the indicators, PPWY, processing time, and accuracy were compared among DDSs
with similar workload size. This methodology resulted in a fair comparison among DDSs
because it addressed the potentially significant variations caused by workload size and
provided a measure of each DDS’ success in managing its own workload. For the
fourth indicator, cost-per-case, our methodology focused on how well each DDS was
able to control its own costs. We believe this methodology was fair since we did not
compare the cost-per-case among DDSs due to variances in cost-of-living across the
country.

DDS’ Claims Processing Performance (A-07-03-13054)                                      18
                                                     Appendices




DDS’ Claims Processing Performance (A-07-03-13054)
                                                                                   Appendix A

Scope and Methodology
Our population of Disability Determination Services (DDSs) for this review included
41 of the 52 DDSs.1 Based on the combined initial clearances for Fiscal Years (FY)
2000 through 2002, we divided the 41 DDSs into five strata, as shown in the following
table (Also, see the table on page A-4).

               Workload            Combined Clearances                Number of
                 Strata            FYs 2000, 2001, 2002              DDSs in Strata
               Very Small             Less than 21,000                     8
                 Small                21,000 to 50,000                     7
                Medium                50,001 to 100,000                    8
                 Large               100,001 to 200,000                   12
               Very Large           Greater than 200,000                   6

To select the 10 DDSs for our review, we used the performance indicators of adjusted
Production-Per-Workyear (PPWY), Title II and Title XVI processing times, performance
accuracy, and cost-per-case. We then developed an overall performance indicator
using the four individual performance indicators for FYs 2000 through 2002. The overall
performance indicator enabled us to select DDSs based upon all around performance
from each workload stratum. The 10 DDSs selected for our review did not consistently
rank as the best performer or the worst performer on all performance indicators.

The individual performance indicators we used to select the 10 DDSs for our review are
described below.

Production: Adjusted PPWY

As the performance measure for production, we used adjusted PPWY. PPWY is
calculated by dividing the number of disability case clearances by the number of
workyears.2 When contractual hours are factored into the denominator, this indicator
becomes adjusted PPWY. The higher the adjusted PPWY, the more productive the
DDS.



1
 We excluded the 10 Prototype DDSs (Alabama, Alaska, California, Colorado, Louisiana, Michigan,
Missouri, New Hampshire, New York, and Pennsylvania) from our review because the claims processing
operations were significantly different. In addition, we excluded the Puerto Rico DDS because most of its
workload was Title II cases.
2
  A workyear is 2,080 work hours (40 hours per week for 52 weeks) which is the number of hours a full-
time employee works. (POMS PM 00203.107B.2).



DDS’ Claims Processing Performance (A-07-03-13054)                                                  A-1
Adjusted PPWY data from FYs 2000 through 2002 were combined to arrive at a 3-year
combined PPWY. The percentage difference between the DDS with the highest PPWY
and each of the other DDSs within the stratum was calculated (see the table on
page A-5).

Timeliness: Title II and Title XVI Processing Time

As the performance measure for timeliness, we used Title II and Title XVI processing
times, weighted by number of clearances, for FYs 2000 through 2002. The lower the
overall processing time, the more timely the DDS processed disability claims.

The average processing time for each year was combined to arrive at a 3-year
combined processing time. The percentage difference between the DDS with the
lowest processing time and each of the other DDSs within the stratum was calculated
(see the table on page A-5).

Accuracy: Performance Accuracy Rate

Performance accuracy is the percentage of cases that do not have to be returned to
DDSs for further development or correction of decisions based on evidence in the case
file and as such, represents the accuracy of DDS disability decisions. This measure
constitutes the performance accuracy standard set forth under 20 Code of Federal
Regulations (C.F.R.) §§ 404.1643 and 416.1043. The higher the accuracy rate, the
higher the number of correct decisions the DDS issued.

The performance accuracy rates for FYs 2000 through 2002 were combined to arrive at
a 3-year combined accuracy. The percentage difference between the DDS with the
highest accuracy and each of the other DDSs within the stratum was calculated (see the
table on page A-5).

Cost-Per-Case

As a performance measure of cost, we used cost-per-case. The lower the percent
change in cost-per-case, the more success the DDS had containing the cost of
processing disability cases. We calculated the percent change in cost-per-case from
FY 2000 to FY 2002, and used this as the measure of cost.3

The cost-per-case in FY 2000 was subtracted from the cost-per-case in FY 2002. The
difference was then divided by the cost-per-case in FY 2000 to arrive at the percentage
change in cost-per-case (see the table on page A-5).




3
 The cost-per-case was not compared between DDSs due to the variances in cost-of-living across the
country.



DDS’ Claims Processing Performance (A-07-03-13054)                                              A-2
Combined Factor

Each DDS’ percentage difference within each stratum for adjusted PPWY, Title II and
Title XVI processing time, performance accuracy rate, and percentage change for cost-
per-case were added together to arrive at a combined factor. Within each workload
stratum, the DDSs were ranked on the basis of the combined factor—the lowest-scoring
DDS on the combined factor was the highest-performing DDS and the highest-scoring
DDS on the combined factor was the lowest-performing DDS. The results of our
ranking methodology are on page A-5.

From each stratum, the highest-performing DDS and the lowest-performing DDS were
selected for our review, as shown in the table below.


               DDS Workload      Highest-performing     Lowest-performing
                  Strata                DDS                   DDS

                 Very Small          Wyoming                Vermont
                   Small               Maine               New Mexico
                  Medium            Minnesota                Oregon
                   Large            Mississippi            New Jersey
                 Very Large        North Carolina           Georgia

We also:

   •   reviewed 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.; SSA's Program
       Operations Manual System DI 11005, DI 22505, DI 22510, DI 24501, DI 24505, DI
       25205, DI 22510, DI 33510, DI 39501, DI 39503, DI 39506, DI 39518, DI 39518, DI
       39545, DI 39557, DI 39563, and PM 00203; and Social Security Rulings 96-1p
       through 96-9p;

   •   reviewed SSA published statistics on DDS disability claims processing and
       performance;

   •   met with and obtained agreement from the Office of Disability Determinations on the
       methodology used to select the DDSs for our review; and

   •   obtained performance-related information from the 10 DDSs selected for our review.

We did not verify the accuracy or reliability of the Social Security Administration or DDS
data presented in this report. We performed fieldwork in Baltimore, Maryland, and
Kansas City, Missouri, from March 2003 to March 2004. We conducted our evaluation
in accordance with the Quality Standards for Inspections issued by the President's
Council on Integrity and Efficiency.




DDS’ Claims Processing Performance (A-07-03-13054)                                    A-3
                                  DDS Workload Stratification4

                                                  Total Initial Clearances
                    DDS              FY 2000        FY 2001       FY 2002      TOTAL      STRATA
       1   Wyoming                        2,674           2,761        3,576      9,011   Very Small
       2   North Dakota                   3,088           3,283        3,607      9,978   Very Small
       3   Vermont                        3,620           3,196        3,411     10,227   Very Small
       4   South Dakota                   4,281           4,714        4,781     13,776   Very Small
       5   District of Columbia           5,446           4,799        5,099     15,344   Very Small
       6   Delaware                       4,734           5,082        6,076     15,892   Very Small
       7   Montana                        5,835           6,344        6,963     19,142   Very Small
       8   Hawaii                         6,816           7,107        6,931     20,854   Very Small
       9   Rhode Island                   8,129           8,101        8,482     24,712     Small
      10   Idaho                          8,373           8,373        9,483     26,229     Small
      11   Utah                           8,226           8,916      10,366      27,508     Small
      12   Maine                          9,575          10,155      11,050      30,780     Small
      13   Nebraska                      10,089          11,215      11,847      33,151     Small
      14   Nevada                        11,770          12,365      15,304      39,439     Small
      15   New Mexico                    13,429          12,734      15,394      41,557     Small
      16   Iowa                          15,468          17,393      19,203      52,064    Medium
      17   Kansas                        17,172          18,346      19,748      55,266    Medium
      18   Connecticut                   18,943          20,655      20,612      60,210    Medium
      19   West Virginia                 23,291          24,932      23,854      72,077    Medium
      20   Oregon                        22,530          23,481      26,687      72,698    Medium
      21   Minnesota                     21,810          24,153      26,915      72,878    Medium
      22   Oklahoma                      25,856          29,502      31,143      86,501    Medium
      23   Arkansas                      26,531          31,781      35,414      93,726    Medium
      24   Maryland                      34,105          33,178      33,663     100,946     Large
      25   Arizona                       32,857          33,680      35,894     102,431     Large
      26   Wisconsin                     30,433          32,310      40,076     102,819     Large
      27   South Carolina                36,773          40,227      41,879     118,879     Large
      28   Washington                    38,677          38,856       43190     120,723     Large
      29   New Jersey                    37,916          43,839      44,419     126,174     Large
      30   Mississippi                   40,471          44,068      46,156     130,695     Large
      31   Massachusetts                 44,975          44,217      46,773     135,965     Large
      32   Indiana                       42,571          41,039      52,497     136,107     Large
      33   Virginia                      46,502          49,192      43,481     139,175     Large
      34   Kentucky                      48,054          51,245      53,814     153,113     Large
      35   Tennessee                     53,401          58,586      62,754     174,741     Large
      36   Georgia                       62,796          74,746      75,726     213,268   Very Large
      37   North Carolina                64,100          76,955      84,978     226,033   Very Large
      38   Illinois                      82,477          84,849      93,607     260,933   Very Large
      39   Ohio                          80,781          93,139     100,824     274,744   Very Large
      40   Florida                      131,884         135,664     139,219     406,767   Very Large
      41   Texas                        127,921         131,730     167,609     427,260   Very Large




4
 There are 52 DDSs. For our review we excluded the 10 Prototype DDSs (Alabama, Alaska, California,
Colorado, Louisiana, Michigan, Missouri, New Hampshire, New York, and Pennsylvania) and the Puerto
Rico DDS (see A-1, footnote 1).



DDS’ Claims Processing Performance (A-07-03-13054)                                                     A-4
                          DDSs Ranked Within Strata Based on
                       FYs 2000, 2001, and 2002 Performance Data5




                                                                              % Difference




                                                                                                          % Difference
                                                    % Difference




                                                                                             Processing




                                                                                                                         % Change in
                                                                   Combined




                                                                                             Combined




                                                                                                                                       Combined
                                                                                                                                       Factor (%)
                                         Combined




                                                                                                                          Cost- Per-
                                         Accuracy




                                                                                Stratum




                                                                                                            Stratum
                                                      Stratum


                                                                    PPWY


                                                                                 within




                                                                                                             within
                                                                                                Time
                                                       within




                                                                                                                            Case
               DDS           Strata


    High Wyoming            Very Small     285.4       2.66%        829.6      12.97%          180.65        0.00%         -1.10%      14.54%
         Delaware           Very Small     284.8         2.86       953.3         0.00         200.71         11.10           9.54       23.50
         Montana            Very Small     283.9         3.17       801.3        15.95         215.13         19.09           2.12       40.33
         North Dakota       Very Small     281.6         3.96       667.5        29.98         215.51         19.29           6.73       59.96
         South Dakota       Very Small     287.0         2.11       790.5        17.08         281.42         55.78           1.56       76.53
         Hawaii             Very Small     285.8         2.52       756.3        20.67         310.69         71.98          -3.05       92.13
         Washington, D.C.   Very Small     292.0         0.41       753.8        20.93         307.81         70.39           4.58       96.31
    Low Vermont             Very Small     293.2         0.00       641.6        32.69         219.89         21.72          47.43      101.84
    High Maine                Small        283.6         2.11       844.9        10.72         217.81          0.00           3.72       16.55
         Nebraska             Small        284.6         1.76       742.5        21.54         228.68          4.99          -6.94       21.35
         Idaho                Small        281.6         2.80       878.9         7.13         232.08          6.55          12.29       28.77
         Nevada               Small        286.9         0.97       932.5         1.46         292.25         34.17          -5.18       31.42
         Rhode Island         Small        281.7         2.76       946.3         0.00         289.32         32.83           8.69       44.28
         Utah                 Small        283.3         2.21       756.4        20.07         277.01         27.18           6.17       55.63
    Low New Mexico            Small        289.7         0.00       765.4        19.12         332.21         52.52          12.77       84.41
    High Minnesota           Medium        288.1         0.79       872.4         3.95         209.53          0.00          -5.94       -1.20
         Arkansas            Medium        290.4         0.00       830.3         8.58         236.98         13.10           0.94       22.62
         Kansas              Medium        278.7         4.03       825.7         9.09         216.73          3.44           9.61       26.16
         Connecticut         Medium        282.1         2.86       908.2         0.00         258.96         23.59           5.04       31.50
         Oklahoma            Medium        287.7         0.93       902.2         0.67         274.73         31.12           6.51       39.22
         West Virginia       Medium        281.0         3.24       817.6         9.97         259.90         24.04          12.41       49.66
         Iowa                Medium        283.3         2.44       771.3        15.08         285.53         36.27           3.44       57.23
    Low Oregon               Medium        282.7         2.65       724.6        20.22         292.06         39.39           4.15       66.41
    High Mississippi          Large        278.5         2.89      1022.7         0.00         201.14          1.71           2.84        7.44
         Massachusetts        Large        282.8         1.39       966.6         5.48         220.81         11.65          12.14       30.67
         Tennessee            Large        280.2         2.30       876.4        14.30         207.20          4.77          12.12       33.49
         Kentucky             Large        280.1         2.34       817.2        20.09         219.17         10.82           4.30       37.56
         Arizona              Large        285.8         0.35       813.6        20.44         233.78         18.21           1.24       40.24
         Indiana              Large        283.4         1.19       854.1        16.48         271.06         37.06          -9.01       45.72
         Virginia             Large        282.1         1.64       891.7        12.81         197.76          0.00          33.09       47.53
         Washington           Large        276.5         3.59       789.6        22.79         240.50         21.61          11.35       59.34
         South Carolina       Large        282.4         1.53       857.8        16.12         287.37         45.31           3.04       66.00
         Wisconsin            Large        286.8         0.00       821.5        19.67         296.05         49.70           4.17       73.54
         Maryland             Large        279.9         2.41       816.8        20.13         241.23         21.98          31.22       75.74
    Low New Jersey            Large        272.6         4.95       754.8        26.19         363.24         83.67          -3.11      111.71
    High North Carolina     Very Large     280.5         1.37       833.8         4.12         252.60          6.57          -6.56        5.50
         Illinois           Very Large     279.4         1.76       803.0         7.67         237.03          0.00           2.47       11.90
         Florida            Very Large     282.9         0.53       821.3         5.57         281.97         18.96           6.65       31.70
         Ohio               Very Large     284.1         0.11       869.7         0.00         306.07         29.12           2.28       31.51
         Texas              Very Large     284.4         0.00       860.6         1.05         280.27         18.24          12.38       31.67
    Low Georgia             Very Large     281.9         0.88       754.5        13.24         292.01         23.20           1.42       38.73



5
  The combined factor in the table is based on an analysis of the performance indicators accuracy,
PPWY, processing time, and cost-per-case. The DDS combined factor was developed separately for
each stratum and is based on comparisons of data for only the DDSs within the same stratum.
Therefore, DDS combined factors cannot be compared among the five strata. For the purposes of our
review, a lower combined factor indicates better DDS performance. A negative combined factor indicates
that the DDS improved its performance significantly on one performance indicator and remained relatively
stable on the remaining performance indicators. For example, the Minnesota DDS decreased its cost-
per-case considerably between FYs 2000 and 2002, and remained relatively stable on the other
performance indicators.



DDS’ Claims Processing Performance (A-07-03-13054)                                                                                           A-5
                                                                                                                                               Appendix B
Disability Determination Services (DDSs) Ranked Nationally Based on
         Fiscal Years 2000, 2001, and 2002 Performance Data1




                                                                                              Processing Time




                                                                                                                               Cost-Per-Case
                                                                               % Difference




                                                                                                                % Difference



                                                                                                                                % Change in
                          (high or low
                          performing)




                                                     % Difference
    Performance




                                          Combined




                                                                                                 Combined
                                                                                Nationally




                                                                                                                 Nationally
                                          Accuracy
    High to Low




                                                                    Combined




                                                                                                                                                Combined
                                                                                                                                                Factor (%)
                                                      Nationally




                                                                                                                                                                 Strata
                                                                     PPWY
                              DDS
    DDS




       1          Mississippi (high)       278.5          5.01      1022.7        0.00        201.14             11.34            2.84           19.20         Large
       2          Wyoming (high)           285.4          2.66       829.6       18.88        180.65              0.00           -1.10           20.44       Very Small
       3          Minnesota (high)         288.1          1.74       872.4       14.70        209.53             15.99           -5.94           26.48        Medium
       4          Delaware                 284.8          2.86       953.3        6.79        200.71             11.10            9.54           30.29       Very Small
       5          Massachusetts            282.8          3.55       966.6        5.49        220.81             22.23           12.14           43.40         Large
       6          Maine (high)             283.6          3.27       844.9       17.39        217.81             20.57            3.72           44.96         Small
       7          Tennessee                280.2          4.43       876.4       14.30        207.20             14.70           12.12           45.55         Large
       8          Montana                  283.9          3.17       801.3       21.65        215.13             19.09            2.12           46.03       Very Small
       9          Nebraska                 284.6          2.93       742.5       27.40        228.68             26.59           -6.94           49.98         Small
      10          Kentucky                 280.1          4.47       817.2       20.10        219.17             21.32            4.30           50.19         Large
      11          Arkansas                 290.4          0.95       830.3       18.81        236.98             31.18            0.94           51.89        Medium
      12          Arizona                  285.8          2.52       813.6       20.44        233.78             29.41            1.24           53.62         Large
      13          Kansas                   278.7          4.95       825.7       19.26        216.73             19.97            9.61           53.79        Medium
      14          North Carolina (high)    280.5          4.33       833.8       18.47        252.60             39.83           -6.56           56.07       Very Large
      15          Idaho                    281.6          3.96       878.9       14.06        232.08             28.47           12.29           58.78         Small
      16          Virginia                 282.1          3.79       891.7       12.81        197.76              9.47           33.09           59.16         Large
      17          Illinois                 279.4          4.71       803.0       21.48        237.03             31.21            2.47           59.87       Very Large
      18          Indiana                  283.4          3.34       854.1       16.49        271.06             50.05           -9.01           60.87         Large
      19          Connecticut              282.1          3.79       908.2       11.19        258.96             43.35            5.04           63.37        Medium
      20          North Dakota             281.6          3.96       667.5       34.73        215.51             19.30            6.73           64.71       Very Small
      21          Nevada                   286.9          2.15       932.5        8.82        292.25             61.78           -5.18           67.56         Small
      22          Oklahoma                 287.7          1.88       902.2       11.78        274.73             52.08            6.51           72.25        Medium
      23          Washington               276.5          5.70       789.6       22.80        240.50             33.13           11.35           72.97         Large
      24          Rhode Island             281.7          3.92       946.3        7.47        289.32             60.15            8.69           80.23         Small
      25          West Virginia            281.0          4.16       817.6       20.05        259.90             43.87           12.41           80.49        Medium
      26          South Carolina           282.4          3.68       857.8       16.12        287.37             59.08            3.04           81.92         Large
      27          South Dakota             287.0          2.11       790.5       22.70        281.42             55.78            1.56           82.16       Very Small
      28          Florida                  282.9          3.51       821.3       19.70        281.97             56.09            6.65           85.95       Very Large
      29          Texas                    284.4          3.00       860.6       15.86        280.27             55.15           12.38           86.38       Very Large
      30          Utah                     283.3          3.38       756.4       26.04        277.01             53.34            6.17           88.93         Small
      31          Maryland                 279.9          4.54       816.8       20.13        241.23             33.54           31.22           89.42         Large
      32          Iowa                     283.3          3.38       771.3       24.58        285.53             58.06            3.44           89.45        Medium
      33          Ohio                     284.1          3.10       869.7       14.96        306.07             69.42            2.28           89.77       Very Large
      34          Wisconsin                286.8          2.18       821.5       19.67        296.05             63.88            4.17           89.91         Large
      35          Georgia (low)            281.9          3.85       754.5       26.22        292.01             61.65            1.42           93.14       Very Large
      36          Hawaii                   285.8          2.52       756.3       26.05        310.69             71.99           -3.05           97.51       Very Small
      37          Oregon (low)             282.7          3.58       724.6       29.15        292.06             61.67            4.15           98.55        Medium
      38          Washington, D.C.         292.0          0.41       753.8       26.29        307.81             70.39            4.58          101.67       Very Small
      39          Vermont (low)            293.2          0.00       641.6       37.26        219.89             21.72           47.43          106.41       Very Small
      40          New Mexico (low)         289.7          1.19       765.4       25.16        332.21             83.90           12.77          123.02         Small
      41          New Jersey (low)         272.6          7.03       754.8       26.20        363.24            101.08           -3.11          131.19         Large




1
  The combined factor in this table is based on a national analysis of the performance indicators accuracy,
Production-Per-Workyear (PPWY), processing time, and cost-per-case for the 41 DDSs in our review.
Therefore, DDS combined factors can be compared among all the DDSs. For the purpose of our review,
a lower combined factor indicates better DDS performance. In addition, we identified the performance
level of the 10 DDSs in this review with a “low” or “high” in the second column.


DDS’ Claims Processing Performance (A-07-03-13054)
                                                     Appendix C

Agency Comments




DDS’ Claims Processing Performance (A-07-03-13054)
                                          SOCIAL SECURITY
MEMORANDUM                                                                         41-24-1031


Date:      August 6, 2004                                                          Refer To: S1J-3

To:         Patrick P. O'Carroll, Jr.
            Acting Inspector General

From:       Larry W. Dye /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report "Disability Determination Services' Claims
            Processing Performance" (A-07-03-13054)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




           DDS’ Claims Processing Performance (A-07-03-13054)                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
EVALUATION REPORT “DISABILITY DETERMINATION SERVICES'
CLAIMS PROCESSING PERFORMANCE" (A-07-03-13054)


Thank you for the opportunity to review and comment on the draft report. We are in
general agreement with the findings and conclusions presented in the report. Numerous
other studies have found that DDS examiner attrition, DDS staffing restrictions, and
salary inequalities often affect DDS production and, indirectly, the accuracy of DDS
determinations.

However, we have some reservations about the grouping of DDS performance data,
described in Appendix A, (Scope and Methodology). We agree that the 3-year totals of
yearly clearances (fiscal years 2000-2002) are a meaningful measure of productivity.
However, we do not endorse a similar addition process to produce totals of weighted
DDS accuracy rates. We prefer a weighted combined 3-year accuracy rate for each DDS,
which is a more statistically reliable measure than the 3-year totals displayed in the
report.

From the combined accuracy totals, percentage differences within each DDS stratum
were calculated. Similar percentage differences were then calculated for the other two
measures of performance (3-year total Productivity Per Work Year, and 3-year combined
processing time), and these differences were added together to yield a single “combined
factor” for each DDS. This method is very similar to the total-scorecard method of
ranking DDSs that we recently analyzed.

In our analysis of the total-scorecard method, we found that the method is unfair and
inequitable under any possible scheme for weighting each measure and “counting” it in
the overall ranking. Even if equal weighting is given to each measure, the measures
themselves are so disparate that, when they are combined mathematically into a single
index, it becomes impossible to draw valid conclusions about their combined effect.

We also found that the drawbacks of the total-scorecard method cannot be overcome by
simple mathematical manipulation of the performance measures. For example, as OIG
points out, it is impossible to standardize cost-per-case across DDSs because of differing
economic conditions in different states. However, there is no general agreement about
methods for deriving a single cost index, and percentage changes in costs are not
meaningful unless they are referred to a standardized and indexed baseline. A similar
consideration applies, with perhaps less force, to efforts to standardize processing times
across DDSs.

Therefore, although we generally agree with the conclusions of this report – and, as
mentioned above, the conclusions are consistent with the results of numerous other
studies – we have serious reservations about the method by which OIG reached these
conclusions.




DDS’ Claims Processing Performance (A-07-03-13054)                                  C-2
Our responses to the specific recommendations are provided below.

Recommendation 1

Continue to work with State governments to resolve the factors that result in high DDS
examiner attrition and difficulties in hiring staff.

Response

We agree. The Federal/State relationship in administering SSA's disability programs is
complex and presents unique challenges. Under the Social Security Act and our
regulations, the States are responsible for providing qualified personnel to ensure that
disability determinations are made accurately and promptly. In addition, our regulations
indicate the DDSs will adhere to applicable State approved personnel standards in the
selection, tenure, and compensation of any individual employed in the disability
program. SSA works with States within the context of this Federal/State relationship to
address staffing issues that affect the performance of the DDSs, but the DDSs are State
agencies with State employees governed by State personnel rules. Rather than imposing
Federal mandates regarding DDS personnel issues, SSA works collaboratively with the
States to reach mutually agreeable solutions to the issues that affect program
administration.

Over the years, the Office of Disability Determinations (ODD) has worked with States’
leaders to overcome barriers to State mandated hiring freezes. We have been successful
in many States. SSA will continue to work with State government personnel to address
staffing issues that affect DDS performance.

Recommendation 2

Initiate development of an optimal staff mix model as the Commissioner’s new disability
determination approach is being implemented and related staffing requirements are
determined.

Response

We disagree at this time. The only basis for such a model would be the past DDS
disability process. The Agency is currently in transition--implementing the electronic
folder (eDib) and anticipating the implementation of the Commissioner’s new disability
process. The staffing mix requirements for the differing processes are unknown at this
time. We will need time to evaluate the staffing requirements as we transition into the
new processes.




DDS’ Claims Processing Performance (A-07-03-13054)                                 C-3
Recommendation 3

In concert with DDSs, establish outreach efforts with providers who are historically
unwilling to submit medical evidence in a timely manner to educate them on the
importance of medical evidence on disability decisions that affect the life quality of
disabled citizens.

Response

We agree. SSA will continue to encourage outreach efforts at the State, regional and
national levels. Currently, each DDS has a staff specialist (Medical Relations Officer
(MRO) or Professional Relations Officer (PRO)) who conducts ongoing outreach efforts
with the medical community. These MRO/PROs work closely with local medical
providers to obtain needed evidence in a timely fashion. The Office of Disability
Programs (ODP) also participates in ongoing outreach efforts through national and
regional conferences of PROs.

Recommendation 4

Assist DDSs to establish innovative processes that will lower the high rates of claimants
who do not attend consultative examination (CE) appointments.

Response

We agree. SSA will continue to encourage the DDSs to establish innovative processes
for lowering the rate of claimants who do not attend CE appointments. However, it does
not appear that the report considered the impact of the workload mix on CE costs and
claimant “no shows.” Cases involving mental impairment tend to have higher rates of
claimant “no shows” to the CE appointment. For cases involving CE appointments, the
DDSs schedule the appointments and send follow-up reminders to the claimants. Cases
involving mental impairments also tend to have less medical evidence of record (MER)
in file. In these cases, the DDSs usually have a harder time acquiring MER from
claimants and need to schedule CE appointments in order to make a determination.




DDS’ Claims Processing Performance (A-07-03-13054)                                   C-4
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Mark Bailey, Director, Central Audit Division (816) 936-5591

   Shannon Agee, Audit Manager, Central Audit Division (816) 936-5590

Acknowledgments
In addition to those named above:

   Carol Cockrell, Program Analyst

   Ken Bennett, Lead IT Specialist

   Cheryl Robinson, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-07-03-13054.




DDS’ Claims Processing Performance (A-07-03-13054)
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
